No. 19-411
IN THE

Supreme Court of the United States
RODNEY REED,
Petitioner,
v.
STATE OF TEXAS,
Respondent.
On Petition for a Writ of Certiorari to the
Texas Court of Criminal Appeals
PROOF OF SERVICE
I hereby certify that on the 28th day of October, 2019, three copies
of Respondent’s Brief in Opposition were sent via third-party commercial
carrier and electronic mail to Petitioner’s counsel of record, Bryce Benjet,
THE INNOCENCE PROJECT; 40 Worth Street, Suite 701, New York, New
York 10013; (212) 364-5980; bbenjet@innocenceproject.org. All parties
required to be served have been served. I am a member of the Bar of this
Court.
MATTHEW OTTOWAY
Assistant Attorney General
Assistant District Attorney
Bastrop County, Texas
Counsel of Record
P.O. Box 12548, Capitol Station
Austin, Texas 78711
(512) 936-1400
matthew.ottoway@oag.texas.gov
Counsel for Respondent

